<html>
<title> - FREEDOM OF THE PRESS IN CHINA AFTER SARS: REFORM AND RETRENCHMENT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
   FREEDOM OF THE PRESS IN CHINA AFTER SARS: REFORM AND RETRENCHMENT

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 22, 2003

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov







                       U.S. GOVERNMENT PRINTING OFFICE
90-597                       WASHINGTON : 2003
__________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

JIM LEACH, Iowa, Chairman
DOUG BEREUTER, Nebraska
DAVID DREIER, California
FRANK WOLF, Virginia
JOE PITTS, Pennsylvania
SANDER LEVIN, Michigan
MARCY KAPTUR, Ohio
SHERROD BROWN, Ohio
DAVID WU, Oregon

                                     CHUCK HAGEL, Nebraska, Co-Chairman
                                     CRAIG THOMAS, Wyoming
                                     SAM BROWNBACK, Kansas
                                     PAT ROBERTS, Kansas
                                     GORDON SMITH, Oregon
                                     MAX BAUCUS, Montana
                                     CARL LEVIN, Michigan
                                     DIANNE FEINSTEIN, California
                                     BYRON DORGAN, North Dakota

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State*
                 GRANT ALDONAS, Department of Commerce*
                   LORNE CRANER, Department of State*
                   JAMES KELLY, Department of State*

                      John Foarde, Staff Director

                  David Dorman, Deputy Staff Director

* Appointed in the 107th Congress; not yet formally appointed in 
  the 108th Congress.

                                  (ii)





                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Gong, Xiaoxia, originally from the People's Republic of China, 
  former director, Cantonese Service, Radio Free Asia, Vienna, VA     2
Zhang, Huchen, senior editor, Voice of America's China Branch, 
  Washington, DC.................................................     5
Bu, Zhong, former reporter and deputy editor, the China Daily, 
  College Park, MD...............................................     7
Lin, Gong, program associate, Woodrow Wilson Center's Asia 
  Program, Washington, DC........................................    10

                                APPENDIX
                          Prepared Statements

Gong, Xiaoxia....................................................    26
Zhang, Huchen....................................................    28
Bu, Zhong........................................................    30
Lin, Gong........................................................    31


   FREEDOM OF THE PRESS IN CHINA AFTER SARS: REFORM AND RETRENCHMENT

                              ----------                              


                           SEPTEMBER 22, 2003

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2:30 
p.m., in room 2255, Rayburn House Office building, John Foarde 
[staff director] presiding.
    Also present: David Dorman, deputy staff director; Selene 
Ko, chief counsel for trade and commercial law; William A. 
Farris, senior specialist on Internet and commercial rule of 
law; and Carl Minzner, senior counsel.
    Mr. Foarde. I would like to welcome everyone to this issues 
roundtable of the Congressional-Executive Commission on China. 
On behalf of Chairman Jim Leach and Co-Chairman Senator Chuck 
Hagel, welcome to our panelists, as well as all of you who are 
attending.
    Last spring's SARS crisis and the increasing 
commercialization of China's press have led to significant 
developments in China's media in recent months. Some of these 
developments have been positive, such as government notices 
requiring officials to provide greater access to reports.
    But the arrest of writers, censoring and closing of 
publications, and the August 2003 announcement that certain 
topics are forbidden to be discussed have had a chilling impact 
on freedom of expression.
    Most recently, Chinese officials have announced plans to 
cut ties with government publications that do not meet certain 
revenue and distribution criteria.
    To help us find our way through this complicated and 
rapidly changing situation, we have four distinguished 
panelists. Ms. Gong Xiaoxia holds a Ph.D. in sociology from 
Harvard. She has taught sociology at UCLA and George Washington 
University. From January 1998 until June of this year, she was 
Director of the Cantonese Service at Radio Free Asia [RFA].
    Mr. Zhang Huchen currently is a senior editor at Voice of 
America's [VOA] China Branch. Mr. Zhang graduated from the 
school of journalism at the Chinese Academy of Social Sciences 
in 1984, and from 1984 to 1990, worked with the Overseas 
Department of the Xinhua News Agency.
    Mr. Bu Zhong worked at the China Daily for 6 years as a 
reporter and deputy editor, and for CNN for 3 years in Atlanta, 
Washington, and Beijing. He holds a Ph.D. in journalism.
    Our old friend Mr. Lin Gang is a program associate, 
currently at the Woodrow Wilson Center's Asia Program, where we 
see him quite frequently. He has served as president of the 
Association of Chinese Political Studies and has taught at 
American University and Johns Hopkins University.
    He has co-edited ``China after Jiang,'' that came out this 
year, and ``Transition Toward the Post-Deng China'' in 2001. He 
received his Ph.D. in political science from Pennsylvania State 
University, an M.A. from Xiamen University, and his B.A. from 
Fujian Teachers University.
    A word to our four panelists. Our process here has been to 
give each of you 10 minutes to make a statement. After 8 
minutes, I will alert you that 2 minutes are remaining, and 
that is your signal to sort of wrap things up.
    Inevitably, no matter how disciplined you are, there are 
some points that you will wish to make in your opening 
statement that you do not have time to make. We hope to have 
time in the question and answer session, after each of you has 
spoken, to catch up those points. We will go until 4 o'clock or 
until we run out of energy, whichever comes first.
    So without any further ado, let me call on Ms. Gong 
Xiaoxia, please.

    STATEMENT OF GONG XIAOXIA, ORIGINALLY FROM THE PEOPLE'S 
  REPUBLIC OF CHINA, FORMER DIRECTOR, THE CANTONESE SERVICE, 
                  RADIO FREE ASIA, VIENNA, VA

    Ms. Gong. Thank you. Ladies and gentlemen, I come here 
today to share with you some of my thoughts on the recent 
development of press freedom, or lack of it, to be more 
precise, in China.
    Particularly, I would like to discuss the meaning of the 
new regulations we just talked about, issued by the Party, 
which are widely hailed as a bold marketization reform and a 
step toward press freedom.
    I would like to address my concern that the overall 
misinterpretation of these new regulations may lead to 
misunderstanding of the Chinese political situation, and might 
mislead our foreign policy as well.
    I think I can skip introducing myself, since you have done 
so. Let me quickly outline my main points here.
    Based on my research and my personal experience, I believe 
that the new regulations recently issued by the Chinese 
Communist Party, although they may bring about some competition 
among the media, do not imply any fundamental change in the 
Party's tight control over the media.
    In fact, the new market these rules create may provide the 
Party with new means to further suppress press freedom. 
Moreover, it may set up a more nationalistic, or even 
xenophobic, trend in covering foreign affairs. It may encourage 
further America bashing in the Chinese press.
    The new regulations were issued between June and August of 
this year. They greatly limit the number of newspapers and 
magazines owned by the government or Party offices. According 
to these regulations, each provincial government office is 
given the authority to buy subscriptions, which was the most 
resented practice in the past 50 years.
    As a result of this regulatory change, most of China's 
press organizations, which used to be directly controlled by 
the government, have now been thrown into a new media market.
    Although the motivation of these new regulations is budget 
prudence instead of press freedom, they have raised hope of 
limited press freedom in China. Many people believe that, by 
introducing marketization, these regulations open doors for 
private ownership in the media, which is among the last areas 
where government ownership still dominates. In other words, the 
trend of marketization in the Chinese economy has now reached 
the media.
    Will this be the beginning of a new era of press freedom? 
Most China observers have given positive answers. We can see, 
like Liu Xiaobo, and like many other people, they will say, 
``Oh great, privatization. And it will be freedom eventually.''
    Undoubtedly, in my view, marketization will introduce 
competition and profit seeking among the media organizations, 
and thus will indirectly encourage some bold experiments 
between the competitors.
    However, neither marketization nor competition 
instinctively indicate freedom. Those are different things, as 
you know. Rather, market competition may provide the Party 
authorities another instrument to control the media, since the 
terms of competition and the rules of this market are largely 
set by the Party.
    Therefore, for media organizations, privately owned or 
otherwise, winning in a competitive market often means to tilt 
in the direction of the government authorities. That is 
something we have to be aware of.
    There are three key questions which can help us to tell if 
the new media regulations are or are not likely to lead to more 
freedom. First, do media organizations need approval from the 
Party Propaganda Department to operate?
    Second, can the Party Propaganda Department interfere with 
personnel decisions, especially hiring, firing, and the 
promotion of editorial and management staff in media 
organizations?
    And third, must media organizations follow the guidelines 
regularly issued by the Party in order to stay in business? 
Those are the three questions we have to ask ourselves.
    Unfortunately, in my world, the answers we have to these 
questions leave very little room for optimism. Press freedom in 
China remains merely an illusion, even within a competitive 
market.
    In order to survive in today's market, Chinese media 
organizations have to yield to the pressure coming first from 
the Party, and then from the market. To be in business and 
profitable, they must promote the Party ideology but do so in 
ways that are attractive to their audience, especially when 
compared to the old stiff propaganda style.
    In the background, the Party maintains tight disciplinary 
power over any members of the media who dare to challenge their 
authority. We have seen plenty examples of that.
    Marketization in the media does not necessarily indicate 
liberalization. In fact, combined with strict dictation from 
the Party, it may well open new forms of media control that use 
the pressure of the new market to strengthen political 
dictatorship.
    In fact, the profit-seeking trend has been taking place for 
a few years. The new regulations merely make it official. Under 
this new trend, I have observed that the Chinese media 
organizations have indeed become more diverse and bolder in 
reporting social and some marginal domestic political issues, 
but few dare to challenge the political authorities.
    Meanwhile, I am also greatly disturbed by the intensifying 
hostility by the Chinese press toward the United States in its 
coverage of international affairs in general, and of the war on 
terror in particular.
    A review of the Chinese media since September 11, 2001, 
shows increasingly negative coverage of the West, and, most 
especially, of the United States. During the war in Iraq, for 
example, the Chinese media constantly attacked the coalition 
forces, even as it kept praising the Saddam regime and the 
Iraqi military, which became sort of a laughing stock after 
that.
    As a Chinese Internet user pointed out, CCTV, the central 
TV station in China, was perhaps the only TV station outside 
the Arab world that reported so many ``victories'' of the Iraqi 
regime, or that launched so many vicious attacks on the 
coalition forces.
    Another critic said that the Chinese press seemed to want 
to 
become a ``consultant'' of the Iraqi regime regarding military 
strategies. Such a tone was, of course, set by the Party 
Propaganda 
Department.
    Since the beginning of the war on terror, that department 
has issued many directives to guide the media in covering this 
war. I personally have some experience with these directives, 
because they stopped the publication of my book, in fact.
    Whereas the Chinese media follows the Party line as a 
matter of survival in domestic affairs, it seems positively 
enthusiastic in doing so when covering international affairs. 
They seem to have discovered that following the Party line here 
is quite profitable. That is what we have to know.
    Take the Iraqi war coverage by CCTV as an example. The 
number of its viewers jumped 28-fold during the period, and the 
station earned an extra $100 million.
    So in other words, the Chinese media was able to collect 
millions of dollars by selling anti-American propaganda. The 
Chinese audience, sadly, seems to have a genuine appetite for 
receiving and accepting such propaganda.
    The Chinese media here have found a niche. In the past few 
years, they learned that America bashing is not only 
politically 
correct, and therefore safe, but also fashionable, and 
therefore profitable.
    Why so? We can think of several reasons. For example, anti-
West sentiment, we have seen recently. But the underlying 
reason remains Party control.
    Today, although China has become a member of the WTO and 
its economy has become more capitalist than Communist, the 
Chinese Government still monopolizes all information resources 
from abroad, except for a handful of prudent Internet users and 
the audience that listens to international radio stations such 
as Voice of America or Radio Free Asia.
    The only source of information about international affairs 
in China is the government. Unlike in domestic issues, when 
most Chinese have first-hand experience to assist their 
judgment, the government can easily regulate charges to 
dominate the coverage of international issues, and thereby form 
and control popular opinions.
    Mr. Foarde. All right. Let us leave it there and pick up 
the final points during our questions and answers.
    Ms. Gong. Sure. Thank you very much.
    [The prepared statement of Ms. Gong appears in the 
appendix.]
    Mr. Foarde. Thank you very much.
    I would like to go on now to Mr. Zhang Huchen.

 STATEMENT OF ZHANG HUCHEN, SENIOR EDITOR, VOICE OF AMERICA'S 
                  CHINA BRANCH, WASHINGTON, DC

    Mr. Zhang. Thank you, Mr. Foarde, and thank you 
distinguished panel. I am very happy to be here this afternoon 
to talk about the state of the Chinese press in the wake of 
SARS.
    At the height of the SARS outbreak last April, the 
Political Bureau of the Chinese Communist Party held an 
emergency meeting in Beijing to discuss how to deal with the 
unprecedented outbreak of the epidemic.
    Among the decisions made at the meeting was to ask the 
media to report truthfully and accurately the magnitude and the 
seriousness of the disease. It was a reversal of the earlier 
practice of 
covering up the disease at both the central and local levels. 
Two high-ranking officials, namely the public health minister 
and the mayor of Beijing, were sacked for the cover-up.
    Drastic changes were seen overnight. Numbers of new cases 
and deaths were published daily in the newspapers and on radio 
and TV. Press conferences held by the new mayor of Beijing were 
carried live on China's Central Television Station.
    Mr. Hu Jintao, China's new president and new Party boss, 
and Mr. Wen Jiabao, the new premier, were seen on CCTV touring 
Guangzhou, Shenzhen, and Beijing, visiting people in the 
marketplace and people's homes talking about the danger of 
SARS.
    Many political observers and analysts of the Chinese press 
believed that this might be a harbinger for a new beginning for 
the Chinese press. However, as the truth of the outbreak 
reached the Chinese public, people in large cities, especially 
in Beijing, became panicky.
    A large number of people, not just those working and living 
in Beijing temporarily or peasants from other parts of China, 
but also from Beijing itself, fled the city in a matter of 
days, bringing the risk of spreading the disease to other parts 
of the country, especially the countryside.
    This must have made the Chinese leaders realize that in a 
country where there has never been any real form of freedom of 
the press, the truth of a major epidemic such as the outbreak 
of SARS might be a little too much for its people to handle.
    Another drastic change was seen in the Chinese press. 
Instead of reporting new areas of contamination and public 
reaction, the focus was now shifted to reporting the ``heroic 
deeds'' of the Chinese medical workers, and what measures the 
government was taking to keep the virus under control.
    The SARS epidemic came to an abrupt end at the onset of 
summer. As the SARS virus evaporated, so did the hope for any 
meaningful change on the part of the Chinese press. Gone also 
was the hope that the SARS outbreak would lead to any 
meaningful political reform and a new era of openness.
    Soon after the World Health Organization lifted the travel 
ban to Beijing and the other major cities in China, Party 
officials in charge of propaganda began to rein in those whom 
they believed had gone too far in reporting the outbreak.
    Several newspapers were ordered to close or were warned for 
interviewing a military doctor who revealed the truth about 
SARS to the Western media, for reporting a major corruption 
case in Shanghai or discussing any ``sensitive'' topics, such 
as political reform and Tibet independence. People who sent 
short messaging texts on cell phones were also prosecuted.
    A telling example of the increased control of the Chinese 
media was the massive demonstration in Hong Kong on July 1 
against the proposed article 23 anti-subversion legislation.
    After the demonstration broke out, there was a blackout on 
the part of the Chinese press. Official news media, including 
CCTV, did not report the mass rally at all.
    TV signals from Hong Kong carrying news of the mass rally 
were cutoff immediately. It was only 12 days later that the 
China Daily, the official English newspaper, mentioned the 
demonstration in a commentary.
    Callers to VOA shows commented that they would have been 
kept totally in the dark about the July 1 and subsequent 
demonstrations had it not been for the reporting of VOA, RFA, 
and other international radio stations.
    The ever-increasing control of the Chinese media did not 
mean that people stopped talking about political reform, 
corruption, and the revision of the Chinese Constitution and 
similar sensitive topics. A number of publications carried 
articles on these issues, and a conference was held on June 19-
20 in the coastal city of Qingdao to debate constitutional 
revision.
    This led the Propaganda Department of the Chinese Communist 
Party to take more action. In August, the department ordered 
Party organizations, research institutions, and universities to 
stop all conferences and suppress all essays on political 
reform, revisions to the Constitution, and the 1989 Tiananmen 
Square crackdown.
    The department also instructed China's news media not to 
report on these ``three unmentionables,'' namely political 
reform, constitution revision, and the Tiananmen Square 
protests of 1989.
    An associate of Mr. Cao Siyuan, the organizer of the June 
conference and a leading advocate for political reform, told 
VOA that Mr. Cao was under a lot pressure from the authorities 
and it would be ``inconvenient'' for him to comment further on 
any issues relating to political reform.
    At the same time, broadcasting of VOA, RFA, and other 
international radio stations continues to be jammed, and 
overseas Web sites blocked.
    However, we can not say that there has been no change on 
the part of the Chinese press since SARS. One ``bright spot'' 
is the reporting of accidents. For many years, natural 
disasters and man-made calamities were deemed ``negative 
news.''
    Reporting of such negative news, it was believed, would 
only bring shame to the leadership of the Communist Party and 
political system. One lesson the Chinese leaders must have 
learned from the SARS outbreak was that diseases, natural 
disasters, and accidents happen to any country, regardless of 
its political system.
    At the height of the SARS outbreak, the Chinese official 
media reported a major submarine accident. After SARS, we have 
seen many, many more reports on food poisoning, coal mine 
explosions, and other accidents. These reports even led to the 
imprisonment of a number of officials who were accused of being 
responsible for the accidents or covering up the accidents.
    Now how do we explain the back and forth in the battle for 
control of the Chinese media? To me, the measures that were 
taken at the height of the SARS outbreak were merely measures 
of necessity.
    China was under a great deal of pressure and criticism from 
the international community, especially the WHO. The Chinese 
citizens had also lost faith in the Chinese media. They would 
rather rely on the grapevine, that is, the central word of 
mouth, text messages on their cell phones, and the Internet, 
for news of SARS.
    The central leadership took those measures to repair its 
badly tarnished international image and to restore some faith 
in its rule. Had the SARS outbreak lasted any longer, it might 
have built some momentum for press reform.
    As it so happened, the SARS virus evaporated at the onset 
of hot weather, and the party officials congratulated 
themselves on their good luck, and went on doing things the old 
way.
    In any case, the fight for the freedom of the press cannot 
be won overnight in China. After all, it will take a Chinese 
Gorbachev, not a virus, to bring down the government's iron 
rule over the Chinese press.
    Thank you, Mr. Chairman.
    Mr. Foarde. Thank you very much, Mr. Zhang. You are 
admirable in your discipline. You came in right on time.
    Mr. Zhang. Thank you.
    [The prepared statement of Mr. Zhang Huchen appears in the 
appendix.]
    Mr. Foarde. Thank you. Let us go on to our colleague, Dr. 
Bu Zhong.

 STATEMENT OF BU ZHONG, FORMER REPORTER AND DEPUTY EDITOR, THE 
                 CHINA DAILY, COLLEGE PARK, MD

    Mr. Bu. Thank you. Distinguished representatives of the 
CECC, ladies and gentlemen, China has been in the midst of 
rapid change in all sectors. Media reform--I do not know if 
this is the right term or not--or media changes, though much 
slower than other sectors, are just beginning to catch up.
    Very few people predicted that the SARS epidemic could 
bring such a widespread panic across China, and give a not so 
widespread, but still heavy, push to China's media reform.
    As we know, the SARS epidemic first originated in south 
China's Guangdong Province in February. It then spread to 
Beijing and several other provinces. Not surprisingly, the 
government-
controlled media kept tight-mouthed about the disease at the 
beginning.
    During that period, Beijing residents mainly depended on 
the Internet, e-mails, and cell phone text messages for SARS 
information. The Internet came to China as the first forceful 
reminder that the days of censorship and suppression of 
information are numbered.
    The media silence was broken in early April after new 
Premier Wen Jiabao admitted that the SARS situation was 
``grave.'' In those days the reporting was mainly about 
government efforts to contain the spread of the disease and 
heroic medical workers saving lives.
    In May and June, I noticed a few newspapers began to 
criticize the government's hiding of SARS information. More 
criticism came after the government declared it would punish 
any officials who tried to hide SARS information from the 
public.
    Let me describe a few of the important ways I see China's 
media evolving today in the wake of the SARS epidemic.
    As one of the first signs of media reform, the media's 
commercialization started silently about 10 years ago. The most 
dramatic step of the commercialization came in June when the 
central government announced that it would end its direct 
financial support to all but three newspapers and one journal.
    This means that most government-owned print media must 
sever their ties with government agencies. As the People's 
Daily reports, these media ``would then be free to operate in 
the marketplace rather than continuing to serve as cultural 
units under government departments or social organizations.''
    China now has more than 2,000 newspapers, 2,000 TV 
stations, and 900 magazines. But 25 years ago, there were fewer 
than 200 newspapers. The rapid growth of the news media has 
made government control less effective, and no one can deter 
them from going to the market.
    The second sign of China's media reform is the end of 
compulsory subscription, which also happened this June. In the 
past, before the end of each year, the government used to issue 
circular orders 
requiring all its departments and agencies subscribe to 
official 
publications. Now this practice is becoming history because the 
government has decided to cease it.
    Over the past 10 years, the official media has become 
increasingly unpopular. On Beijing's streets, no People's Daily 
can be found on newsstands. At the same time, the government 
has been cutting off its financial support to its mouthpieces.
    In late 1990s, the financial support that the China Daily 
received from the government accounted for less than 10 percent 
of what was needed, while the remaining 90 percent came from 
its advertising revenue and a few tabloids it published.
    Today, all the official newspapers publish one or more 
tabloids, which carry a lot of advertisements, and have cut 
their official news down to a minimum. These tabloids make so 
much money that they can comfortably support their more 
official big brothers.
    In Beijing, the Beijing Daily publishes a tabloid, the 
Beijing Evening News, and the People's Daily tabloid is the 
Jinhua Daily.
    Now let me talk a bit about Chinese journalists. It seems 
to me that many Chinese journalists are pushing the frontier to 
put their ``controversial'' stories in print or on air.
    China Central Television's TV magazine, ``News in Focus,'' 
can be a good example. Now and then, it has to pay lip service 
to the official line for survival, which is fully 
understandable.
    But from time to time, it airs the deepest grievances and 
the indignation of those oppressed by the sheer greed and 
shamelessness of the lower-level government bureaucracy. To me, 
the TV show is mainly a muckraker, occasionally, a shocking 
muckraker, in the best tradition of American muckrakers.
    Now I would like to talk about the top leadership. The 
majority of the new top leadership, once in full power, clearly 
has in mind the need to ease media control, but ease it little 
by little.
    As high technology develops at breakneck speed and out of 
their control, the Chinese media becomes more and more open, 
almost against the Party's will. Some degree of disobedience 
and even defiance on the part of the media can be observed in 
the past couple of years, and also some official tolerance.
    As soon as he gained power, President Hu Jintao invited 
experts to give lectures to all the Politburo members 
regularly. The main contents of each lecture have been reported 
in the press as a subtle means of letting attentive people know 
what is on the minds of the top leaders right now.
    As I remember, the first study session was on the 
Constitution and rule of law, a manifest enough hint to the 
public that during Hu's power he is going to rule by law, not 
by his personal authority.
    The latest lecture they had is about the industrialization 
of media content. The concept is nothing new in the West, but 
it is in China where media outlets had long been taken as a 
propaganda machine.
    It seems to me that no change in China's media is 
insignificant. Right now, the gains made at every step seem too 
insignificant to matter, but the progress is there for people 
to see, if they care to see it. These modest gains will in time 
amount to marked and 
important change.
    In China, press freedom and independence is to be a 
painfully slow process, but it does shuffle its feet forward in 
the right direction. It is unwise, even undesirable, for one to 
exercise undue pressure on it, which may yield an effect to the 
contrary to that which is 
desired.
    If you refuse to believe things are going in the right 
direction, pick up any newspaper, even the People's Daily, and 
compare it with what it was, say, 10, or even 5, years ago. In 
those old, dark days, news of a plane crash was suppressed in 
media if there were no foreigners on board.
    After SARS, everyone in China has seen that suppression of 
information and of public deceit could quickly and directly 
endanger people's lives by the thousands, and drove the lesson 
home in the most convincing manner that the denial of the 
people's right to know could be the denial of their very lives.
    Finally, I hope the voices from the Chinese people can be 
heard in the world. To find out what is happening in China's 
media, we must listen to those who still live in China and 
those who work in the Chinese news media. I believe they know 
the best about China.
    Mr. Foarde. Thank you very much for giving us lots of 
things to think about, as well as for your brevity and 
concision.
    Mr. Bu. Thank you.
    [The prepared statement of Mr. Bu appears in the appendix.]
    Mr. Foarde. We will now go on to our friend, Professor Lin 
Gang.

   STATEMENT OF LIN GANG, PROGRAM ASSOCIATE, WOODROW WILSON 
             CENTER'S ASIA PROGRAM, WASHINGTON, DC

    Mr. Lin. Thank you, Mr. Foarde, and good afternoon, ladies 
and gentlemen. It is my great pleasure to share my personal 
observation of Party media reform in China with you.
    As you know, one by-product of China's economic reform is 
the growing commercialization of the Chinese media. According 
to official statistics, between 1978 and 2002, the number of 
newspapers in China increased from 186 to 2,137, while the 
number of magazines increased from 930 to 9,029.
    Most of these media are still owned by the party-state, 
receiving more or less of a subsidy from the government. 
However, advertising and subscription income has become the 
major source of revenue for the media, except for newspapers 
and magazines directly run by the Party and government organs, 
so called ``dangzheng jiguang.''
    Media commercialization has provided new incentives and 
opportunities for journalists to cover lively, sensational, 
provocative, and diverse stories, and expose political 
corruption, even though it may offend government officials.
    Amid media commercialization, Party-state organ newspapers 
and magazines, continue to lose their readership. The 
circulation of the People's Daily, the principal mouthpiece of 
the Chinese Communist Party, decreased significantly from 6.2 
million in 1979 to about 2 million two decades later.
    To increase readership, many Party organ newspapers have to 
rely on their subordinating newspapers for financial support. 
Two-thirds of Party organ newspapers run by provincial Party 
committees have evening newspapers or metropolitan newspapers.
    The Guangming Daily, a national newspaper run by the Party, 
targeting intellectuals, has benefited from its subordinate the 
Life Times. Even the official New Chinese News Agency carries 
some sensational stories related to sex on its Web site.
    To increase readership, China's new leadership under Hu 
Jintao has called for the Party's media to be ``close to the 
mass, close to the realities and close to life,'' reducing the 
exposure of leaders' 
activities in the media to give more coverage to ordinary 
people.
    Most recently, the Party plans to end its direct financial 
support to the mandatory subscription requirement of most 
Party-government newspapers and magazines.
    At the national level, only three newspapers and one 
magazine are the exceptions, they include the People's Daily, 
Guangming Daily, Economic Daily, and Seeking Truth, which will 
still be run by the Party's central leadership.
    At the provincial level, the central leadership will allow 
each Party committee to continue operating one newspaper and 
one journal. Each municipal Party committee will be allowed to 
operate one newspaper only, and county-level Party committees 
and governments can no longer operate media publications.
    Beijing's reform plan on Party media is based on at least 
two considerations. First, to reduce the financial burden. In 
today's China, each province can have as many as several dozen 
Party newspapers and magazines, starting from the provincial 
level down to the county level.
    These media are dull in content, relying heavily on 
subsidies and mandatory subscriptions by governments at the 
different levels. The lower the level of the government, say 
the township level, the more Party newspapers and magazines 
they are supposed to 
subscribe to, thus creating a heavy burden for the grassroots, 
particularly to those in poor rural areas. So, first is the 
financial consideration.
    The second is strengthening the Party media. To maintain 
too many Party newspapers and magazines not only increases 
government's financial burden, but also makes Party media 
either more boring--repeating the same tune here and there--or 
inconsistent. This was described by a political scientist as 
``different mouths for the same brain.''
    By keeping a limited number of Party newspapers and 
magazines, Beijing apparently tries to make a distinction 
between Party media and the mass media. In this way, it tries 
to free the Party media of fiery market competition with less 
media, without loosening the Party's guidelines. That is my 
personal observation.
    The relative retreat of Party newspapers and magazines from 
the media market follows Beijing's strategy of retaining large 
state-owned enterprises and privatizing smaller ones in 
economic reform, so called ``zhuada fangxiao,'' to reform 
economic situations.
    The commercialization of mass media does not necessarily 
mean that the Chinese media will gradually gain political 
independence from the state control. For the foreseeable 
future, the political taboo will co-exist with Beijing's one-
Party rule.
    Chinese journalists have to be cautious in exposing the 
dark side of the society, because too much exposure of social 
problems will not only shake people's faith in the performance 
of the Party-state, but also challenge the legitimacy of the 
political regime, and one-party rule. In the absence of 
significant political reform, we should not expect media 
freedom in China as we understand it in the United States.
    That is my personal statement. Thank you.
    [The prepared statement of Mr. Lin appears in the 
appendix.]
    Mr. Foarde. Thank you very much, Professor Lin. Also lots 
of food for thought there.
    I will give our four panelists a minute to catch their 
breath and I will make a couple of short administrative 
announcements.
    The next week or 10 days is a very busy period for the 
CECC. On Wednesday morning, the 24th, we are having a full 
hearing on China's WTO implementation and compliance, and 
commercial rule of law issues. Chairman Leach will preside, and 
Co-chairman Hagel will also be in attendance. That is at 10:30 
a.m. on the day after tomorrow, Wednesday, the 24th, in room 
491 of the Dirksen Senate Office Building.
    In addition to that, on October 2, our annual report will 
be presented to the public at a press conference at 10 a.m. in 
this room 2255, Rayburn. So, lots going on.
    Let us now move to our question and answer period and give 
our staff panel here a chance to ask some questions of our 
panelists.
    I think I would began by addressing a question to Gong 
Xiaoxia. First of all, you, and Mr. Zhang also, gave us much to 
think about. I knew that you had a point or two that you wanted 
to finish making, and so I give you the opportunity to do that 
if you would like.
    Ms. Gong. Actually, that is pretty much it.
    Mr. Foarde. All right. Then I have a question for you. 
First of all, how much, here in 2003, do Chinese readers really 
trust the press that they read? You say that the Chinese 
audience wants the type of anti-American and anti-Western 
propaganda that they are seeing, but do they really trust the 
press on this and other things?
    Ms. Gong. I do not think they completely trust the press or 
media. I am from China. I lived in China for 31 years, so as my 
fellow Chinese--now I am American, actually--my former fellow 
Chinese--I have a really natural distrust of the press. I don't 
think the Chinese people trust the press.
    On the other hand, in terms of sentiment, many Chinese, 
especially the educated Chinese, identify with them and they 
reflect that sort of popular anti-Western sentiment.
    They would believe that they know even more, and they have 
more to support that sentiment. I talk to them--I am from 
Peking University--I am still talking to my colleagues, and 
that is my 
impression.
    Mr. Foarde. That is very useful. Thank you very much. I 
would address a question to Dr. Bu Zhong. During your 
presentation, you were talking about the new tabloids that have 
been published by some of the very well-known state 
publications, and you said that they are making a lot of money. 
How are they making the money? Is it on advertisements or from 
subscriptions, or how?
    Mr. Zhang. From both, actually, because so many company 
officials do not talk about so many political issues in the 
newspaper. They just talk about whatever sensational is out 
there, maybe something about their life, something that 
happened in their neighborhoods.
    A good example was by the Beijing Evening News. For so many 
years it was so popular, and the sales--when it hit the 
newsstands, in 1 or 2 hours, you could not buy it any longer. 
Actually, as far as I can remember, all provincial Party 
newspapers now publish tabloids.
    Ms. Gong. May I add a point here?
    Mr. Foarde. Please, go ahead.
    Ms. Gong. And also corporate sponsorship is well-hidden, or 
open.
    Mr. Foarde. How is that done?
    Ms. Gong. Well, one case I know, one tabloid paper only 
reports on the positive news of corporations, health, or 
medicine, or something. So now the corporations pay a 
tremendous amount of advertising fees for that paper.
    Mr. Foarde. In return for positive coverage of their 
activity.
    Ms. Gong. Exactly.
    Mr. Foarde. But I take it that this same publication would 
also publish other stories?
    Ms. Gong. Yes, of course.
    Mr. Foarde. Not just a publication for the company.
    Ms. Gong. No. It is not like that. Also, they pay the 
reporters under the table. That is something they do.
    Mr. Foarde. My final question, as my time is running out 
for this round, is to Professor Lin. You said the readership of 
the flagship publication of the Communist Party, the People's 
Daily, is now about 2 million a day. Where are the readers? Do 
you know? Are they concentrated in the cities, or is it all 
over the country? Where are most people actually reading?
    Mr. Lin. The People's Daily is still required to be 
subscribed by grassroots units. Not for ordinary people. My 
friend told me just recently it is difficult for him to find a 
People's Daily on the newsstand, but basically, through 
subscriptions. Those people reading the People's Daily are more 
related to government institutions, than not. That is my guess.
    Mr. Foarde. I normally do not interrupt these comments with 
vignettes, but let me give you a brief one which I think 
underscores your point.
    After many years away from China, I returned in April 2000, 
and went out one early morning to have coffee with a friend. 
The fact that you could actually go out to have Starbucks 
coffee in Beijing showed that there had been quite a bit of 
change.
    But I went past the newsstand and I said, let me get a copy 
of the People's Daily. And so I went over and asked the woman 
in the kiosk for it. She looked at me very funny. And I said, 
``What is in the People's Daily today? '' And she replied, ``I 
do not know. I do not read that thing any more.'' So, things 
really have changed a great deal.
    Mr. Lin. Evening newspapers are much more popular than a 
daily, say Xinmin Wanbao for Shanghai, and the reporters earn 
more money than the chief editor or president of the People's 
Daily. So, you can see the difference.
    Mr. Foarde. How interesting. My time is up.
    I would like to recognize my friend and colleague, Dave 
Dorman, who represents Senator Chuck Hagel.
    David.
    Mr. Dorman. First, I would like to thank each of you for 
taking the time today to help us illuminate this important 
topic for the members of our Commission. Each of your 
testimonies was very valuable.
    I would just start with a comment. It is based on something 
that Ms. Gong said, and I think Dr. Lin Gang followed up on. 
You both made the comment, I believe, that marketization does 
not necessarily mean liberalization. I am going to add that 
capitalism does not necessarily mean democracy, another proof 
of political science demonstrated in China. It is an 
interesting point.
    I am going to ask each of you to get your crystal ball out 
for a second and help us all understand what you think about 
the reforms and regulations that have recently been announced.
    Ms. Gong mentioned a new media market. If we could fast-
forward, say a year, or even 2 years from now, and imagine that 
the SARS epidemic is occurring for the first time, do you 
believe that this new media market would report on the epidemic 
any differently?
    Ms. Gong. Can I go first? I believe, in looking at it, 
perhaps the answer is yes. The public thinks, well, if you can 
chase a story, find a story, expose social issues, if you find 
something worth reporting, you report. You cannot link that to 
some subjects--for example, they made a very clear directive to 
all the news media that you can discuss SARS, you can go chase 
the story of SARS.
    Well, actually the media did so. But the bottom line here 
is, you cannot link SARS epidemic with the political system. We 
cannot say, ``What is wrong with the political system which 
caused this disaster? '' That is the bottom line.
    So I believe, in a year or two, the bottom line will remain 
the same, until we have broad-reaching change and the reporting 
itself may be a lot more diverse.
    Mr. Lin. As a result of media commercialization, 
journalists, in general, may enjoy more freedom on social and 
economic issues, but not on political issues. Talking about 
SARS. Of course, there was a lot of exposure of that issue. But 
for the government, you have to expose the issue positively or 
constructively. We do not expect to have some sensational 
stories. Say, somebody bravely died because of SARS. We believe 
a lot of officials who were responsible for that kind of issue 
were sacked, but few were exposed in the media. Then if we make 
a comparison--in Taiwan, government officials are held 
responsible for all this kind of problem and exposed in the 
media during that period. But in China, they just give you some 
figures, very commonly, very constructively and positively. You 
do not expect that kind of sensational stories on Chinese TV.
    Ms. Gong. Another phenomenon is the so-called rule of law 
and the responsibility of others. Several times already, the 
government has threatened to sue reporters for reporting a 
story which caused political damage. That is something we also 
have to pay attention to. They may use other tactics to further 
suppress press freedom, especially fines, in a money-driven 
business.
    Mr. Zhang. I have mixed feelings about this question. On 
the one hand, I doubt that if the first SARS outbreak were to 
happen 2 years from now, instead of disappearing, the result 
would be any different. We have seen a lot of growth on the 
part of Chinese media and the variety and amount of information 
in China.
    In China, the Chinese people can get access to a large 
variety of information these days, including business, 
entertainment, sports, health, and lifestyle. But on the other 
hand, the government is still controlling very tightly 
reporting of political news and any news that may be deemed 
harmful to the image or the actual rule of the Chinese 
Communist Party or the socialist system.
    The SARS epidemic was quite different news from other 
health news. It concerns a lot of aspects, including the 
bureaucratic system, how they reacted to the outbreak, or what 
the government did to cover it up.
    So the SARS problem might be considered a little bit more 
than just health news. It is too important. It is almost 
political news for the Chinese leadership. So, I doubt that, if 
the SARS epidemic were to happen 2 years from now instead of 
last spring, the result would be any different.
    But, on the other hand, I also think that the SARS epidemic 
became such a big thing and had a lot of unique circumstances. 
First of all, it was covered up by both the central and local 
leaders, officials, the Health Ministry, and officials in 
Guangdong Province.
    It also happened that the National People's Congress annual 
session and the Chinese People's Political Consultative 
Conference were held in the beginning or middle of March, just 
before the height of SARS. Those two things made the Chinese 
leaders realize that they must be very quiet about it so as not 
to bring any factor to destabilize the country.
    So if the SARS epidemic were to happen 2 years from now 
under some different circumstances and at a different time of 
the year, the result might be a little bit different.
    Mr. Foarde. All right. We are out of time. So, it is time 
to go on to our friend and colleague, William Farris, who 
follows free flow of information issues for us, and helped put 
together today's panel.
    Please.
    Mr. Farris. Thank you, everyone. I think this question is 
probably particularly directed to Dr. Bu, but anyone can feel 
free to offer their thoughts on this. Doctor, you mentioned 
during your talk that the progress is slow in the right 
direction, and we need to be careful about what steps are taken 
in order to encourage this to keep going in the right 
direction.
    I am wondering if you have any recommendations or any 
thoughts on, how important do you think it is for the U.S. 
Government to continue to fund efforts like VOA and RFA, or 
various other Web sites to get information and news into China?
    And if you think there are other types of assistance or 
activities that the U.S. Government should be undertaking or 
funding, what role can the U.S. Government play in encouraging 
China's media and China's government to continue going in the 
right direction and perhaps speed up the progress?
    Mr. Bu. First, I do not understand what VOA or what Radio 
Free Asia is doing. Now I cannot listen to them, because in the 
United States I cannot. Back in China, they were jammed.
    It basically seems to me that we need to listen to the 
people living in China. I believe that is very important to 
find out what is really in their minds. I keep very frequent 
contact with all of my former friends in China--I find so many 
changes happening in their minds, in their way to approach new 
stories.
    One of my friends who works in South China told me he could 
virtually write anything nowadays, as long as he does not write 
anything against the government. He says, yes, there are so 
many things that he wants to write, but could not put in print. 
But there are some things he could refuse to write. That, it 
seems to me, constitutes very big changes there.
    I have never heard of this before. If you were assigned a 
story, you must go ahead and cover it, or whatever. Nowadays, 
in his situation, he can actually choose that. He can enjoy a 
little bit of that kind of freedom.
    So my basic point is that it is really important to listen 
to the people inside China, especially if you want to know the 
media system there. We need to listen to those media 
professionals and what is in their minds.
    Another point is, and it is maybe risky, we totally do not 
recognize the progress China has made. This kind of slow 
development can fool us into not seeing the big picture of 
China's media system. You know, so many changes have happened, 
but we never know. We still get it framed in our minds that is 
bad and it is always bad. I see all the progress that the 
Chinese are making, and it seems to me that the leadership is 
changing, too.
    I can give another example. The Labor Minister recently 
talked to a group of journalists and said, ``I really urge you 
guys to report industry accidents, because I believe 70 
percent, even 80 percent of those accidents were caused by 
corruption. Your reporting will help us curb this corruption. 
We cannot let this happen again and again in this country.'' 
So, I believe that is progress there.
    Also, in some provincial governments, like Anhui--they 
punish any official who refuses journalists' interviews. I do 
not know if you have heard of that. That was published in the 
People's Daily. It really surprised me.
    So, from the people we really notice those kinds of 
changes. The top leadership, it seems to me, cannot change 
everything overnight. But I do see progress there happening all 
the time.
    Mr. Lin. May I add one sentence? I think we should invite 
liberal intellectuals, including journalists, to the United 
States to let them have a chance to see what is happening here. 
But we don't need to invite radicals to the United States, 
trying to educate them, because some of them intentionally 
present themselves as radicals, and sell their provocative 
ideas to the West.
    Ms. Gong. I would like to jump in, since I worked at Radio 
Free Asia for 5\1/2\ years. I have to confess, I am sort of a 
technological freak. I really love those things. What I fear is 
that we have advanced too much in technology. But let me say a 
few words on international broadcasting. The international 
broadcasting to China has not caught up with technology.
    For example, we think of the digital area. They are still 
using short-wave broadcasting. I am very obsessed with 
broadcasting, since I started listening to all of this since 
1971, which was the main source of my outside information, 
which also helped me to become a political dissident, and 
imprisoned later.
    But here I really think the United States can get the 
International Broadcasting Board of Governors to put more 
effort and put more research into looking at new technological 
developments, including the Internet and digital satellite 
broadcasting. To push the Chinese media to change, is to have 
real competition there.
    Also, I was thinking that I talk to a Chinese audience 
almost every day. What really impressed me was, during the war 
in Iraq, so many Chinese people called in and asked for 
detailed information about the war in Iraq, because they have 
no trust in the Chinese official media.
    So, I believe, on the one hand we can see the Chinese press 
has been much more diverse and yet in a sense not really free, 
but open in social and some political issues. But in 
international reporting, that's the blind spot. If you let the 
Chinese Government lead on this reporting and to form popular 
sentiment--I really think the United States should focus on 
this problem.
    Mr. Zhang. I would just like to add, briefly. I think it is 
very important for the Congress to continue to fund, and even 
to increase funding, for U.S. international broadcasting. 
Because Mr. Foarde asked the question, do the Chinese people 
believe the Chinese press? The answer is, yes and no.
    They turn to the press for any kind of information, 
including entertainment, health, war, and so on. But the thing 
they do not trust, for example, is politics, political news, 
and international news. That is why they turn to radio stations 
like VOA and RFA, because they want to get more information on 
China's political news and international news, unfiltered, 
unbiased.
    Dr. Gong Xiaoxia talked about how the Chinese media 
reported the war in Iraq and other international issues. They 
want to hear what is really going on inside Chinese politics, 
what is going on in the world, and what is going on in America. 
That is where U.S. international broadcasting can provide for 
the Chinese people.
    Ms. Gong.  While you will see plenty of diversity in 
reporting social issues, if you use the Internet search engine 
and search for some international news, you end up with so many 
pages, but usually only one version of the story from the 
Xinhua News Agency. I found out that the audience was most 
interested in that news and in that reporting. That is an area 
where we should really step in.
    Mr. Bu. Could I add one more point? In talking about 
supporting things, I really hope the U.S. Congress will 
continue support for more Chinese students to come to the 
United States to take a real look at what is going on here.
    My personal experience has shown me this very clearly. The 
first time I came to the United States was on a Freedom Forum 
fellowship; I came to the United States to get a chance to work 
at the various news organizations for 1 year, and to get a 
chance to visit Virginia and Tennessee, and a couple of Freedom 
Forum offices there. That really helped me understand the 
American system better.
    While I was working in CNN's news room, I almost always 
compared the reporting by my Chinese colleagues and my American 
colleagues. This helped me understand better the two systems. I 
really believe a better understanding between the two systems 
will help us better understand the two peoples.
    Mr. Foarde. Thank you very much. William is out of time.
    We will go on to our next questioner. I said a few minutes 
ago that we are having a busy week or 10 days at the 
Commission, but today is a particularly happy occasion because 
we have a new staff member who has just joined us.
    He is Carl Minzner. Carl is a distinguished attorney with a 
great background in China and the Chinese language. This is his 
first day on the job, and his first issues roundtable. So, 
Carl, over to you for some questions to our panelists, please.
    Mr. Minzner. Thank you very much. I appreciate the 
opportunity to meet and listen to what each of you has to say.
    I will just pick up on one thing that William had raised. 
We were just talking about American broadcasts into China. 
Particularly, I want to pick up on something that Dr. Gong 
brought up, which is that you noted that there is a rise in 
anti-Western sentiment in the media.
    Part of that may not be merely the fact of government 
control of the media, but may also reflect sentiment on the 
part of some of the readers, on the part of some of the 
consumers of the media.
    Given that, how should the U.S. Government alter its RFA 
and VOA broadcasts? Is there anything that should be changed to 
address this sentiment, and if so, what should be done?
    Ms. Gong. All right. Well, I would like to add a little bit 
more. My point is that, even as a popular sentiment which seems 
to be spontaneous, in that environment, under the political 
dictatorship, it was formed by the government, by the 
government propaganda. It is a bit of a complicated question, I 
have to admit.
    If one discusses how the sentiment was formed, actually, I 
would like to ask something of Mr. Bu Zhong.
    In a way, all the students who studied in America and went 
back to China, I would say a large percentage--I am not sure if 
it is a majority, but a large percentage--became extremely 
nationalistic and anti-America. That is a very sad fact, and we 
can discuss that further.
    But I think RFA and VOA and organizations alike can do is 
to have more extensive reporting. Take the war on terror, for 
example. I watch the Chinese media every day and they did 
report American opinions, but overwhelmingly reported the 
thinking of leftist intellectuals in America. The idea was 
``Even Americans think the Americans deserve it.'' That is so 
ridiculous, I would say.
    So for VOA, and RFA, and organizations alike, in our 
reporting, I firmly believe we need to organize and to 
coordinate between all of us some in depth informational panels 
for the Chinese audience. There are plenty of things we can do. 
But facing the new budget cuts in international broadcasting, I 
really doubt if we can very well accomplish the job if we have 
further budget cuts.
    Mr. Zhang. I would like to say that we need to explain U.S. 
policies better for our global listeners. The sentiment Dr. 
Gong described is very true in China and in other parts of the 
world.
    I happened to be in Korea to cover the World Cup 2002. I 
found that a lot of young people in Korea harbor anti-American 
sentiment because of a lot of factors. I am not going to say 
anything about that today.
    But I think we can do a better job of explaining our 
policies to our listeners. Sometimes it is hard for us to find 
people who are in the position to explain our official policy 
to our listeners.
    I am reporting on the Congress. Congress is my beat now. 
But, more often than not, I find a lot of people are not 
returning my calls. I know they are very busy people. But 
sometimes VOA and RFA might not be their priority.
    They think it is more important to be responsible to their 
own districts, to be responsible to their voters, or getting on 
national TV. They do not know it is also important to explain 
our policies to our listeners and viewers across the world.
    Second, we need to tell people in the world that there are 
different opinions in America regarding a lot of things, the 
war in Iraq, anything, you name it. I think that is how we can 
win more people over to our side. Thank you.
    Mr. Foarde. We are out of time.
    We will go now to Selene Ko, our colleague who handles 
commercial rule of law issues, usually, but also is interested 
in free flow of information issues.
    Selene.
    Ms. Ko. Thank you, everyone, for being here today.
    I wanted to switch subjects a little and talk a bit about 
the media profession itself, and professionalism and corruption 
within the media in China, and whether or not any of you think 
that is a serious problem or whether corruption is raised as an 
excuse for increased and heightened government regulation of 
the industry. If it is a serious problem, how should it be 
addressed?
    Also, can you tell me whether there are any self-regulation 

efforts going on within the Chinese media? Has there been 
development of a code of ethics or anything of that nature.
    Mr. Bu. Can I talk a little bit about that? While I worked 
at the China Daily, first of all, I worked as a reporter. 
Someone invited us for a free lunch for something. In the first 
year or two, you think, ``Yes, this is so great. I never got a 
chance to go to that fancy hotel before. I can go there now.''
    That happens with some American companies. They are so 
rich, they can afford to rent fancy hotels to treat those 
reporters. Then the reporters come back with some stories 
there. Because the companies could be Ford, could be Motorola, 
whose events are also big stories there because they have 
invested so much money in China.
    After a while, I found that was a shame to me, especially 
when I began to read something about journalism and what we 
really should do.
    Later I became a copy editor. I could tell if a reporter 
got money or not from the sources when his story appeared on my 
computer. Sometimes, that is a big story. If that story is not 
so important but the reporter wants to get it into the 
newspaper there. I will tell him, ``You cannot do this there.''
    But it was a common practice. Back then, when I was working 
there in the mid-1990s, I believe that more and more 
journalists felt that this was not a good practice at all. You 
are just like someone who tosses you any food, and you just 
hang around like a dog.
    So, Chinese journalists want to have their own professional 
dignity. They do not want to just stick around all these 
issues. I cannot say no one will do that today. As I know, 
among my friends there, we talked about this issue. We no 
longer feel proud of ourselves to get 1,000 or 2,000 yuan or 
something. It is no longer a good thing.
    More and more newspapers pay journalists very well now, so 
they do not care about this kind of money, or ``taxi fees,'' 
which it is often called. So, I believe that the more 
commercialized a newspaper will be the practice will be less 
popular there and----
    Mr. Zhang. I think it is a growing problem, but not such a 
serious problem yet. If it becomes worse, each news 
organization can develop its own code of conduct to fight it. 
But right now, they do not have any code for anything, not even 
a dress code.
    Mr. Bu. Actually, the readers are not stupid at all. You 
have got this kind of news that always puts those companies in 
a positive light, and they can tell. You cannot survive in the 
market at all, not for a while.
    Ms. Gong. Talking about corruption, another thing I realize 
is plagiarism. It is the overwhelming problem. It has been 
problematic for the past few years. Well, I regularly publish 
in Hong Kong, not in mainland China, but in the Hong Kong 
papers.
    Once I published an article about something. I forget. 
American marriage, or something like that. I found out, on the 
Internet alone, it was copied more than 20 times, published 
without telling me, without my name there. So, that is another 
problem.
    Mr. Foarde. We have some time left. I would like to 
continue the questioning by posing a question or two to Mr. 
Zhang Huchen, please.
    You said in your presentation that, with the 
``evaporation'' of the SARS virus in the late spring, the 
Chinese media were patting themselves on the back. But you gave 
a very downbeat assessment of what the longer term implications 
might be.
    One of the things that we are all looking at very carefully 
is whether SARS will come back as the weather cools off this 
fall and into the winter flu season? If it does, can you give 
us a sense of whether you think that the Chinese news media 
will feel that it is able to, or will be allowed by the 
authorities, to report more freely on outbreaks than it was 
late last winter?
    Mr. Zhang. Yes. I think the reporting of another SARS 
outbreak would be much better, first of all. I think the 
Chinese Government has learned a lot from the past outbreak. It 
was treated merely as a public health issue, not as a political 
issue anymore. The Chinese media treated it as such.
    Mr. Dorman asked a question about, if this SARS outbreak 
happened 2 years from now, and I think I sort of answered his 
question. But if another outbreak happens, say next spring or 
next winter, would the Chinese Government or the Chinese media 
treat it differently?
    Yes, I think so. They will treat it merely as a public 
health issue, not a political issue any more. They will be 
downbeat and downgrade the significance of such an outbreak, 
and I think they will do a much better job this time.
    Mr. Foarde. So can I ask you a related question? You were 
talking also in your presentation about the increased ability 
after SARS for the Chinese print media to report sort of 
negative news, natural disasters.
    Does this include official misconduct? For example, when 
people feel cheated out of their property or their rights to 
pensions or what have you by local government authorities and 
have protested? Have you seen more reports of that sort of 
behavior?
    And what about, for example, worker protests of the types 
that we saw last year in Liaoyang in the northeast, but also 
during this year in some other places on a much smaller scale?
    Mr. Zhang. I think they are making a distinction between 
local corruption and public resentment or unrest on a larger 
scale. 
The former one can basically be contained locally, like coal 
mine explosions.
    They arrested and imprisoned a number of local officials 
for covering up the accidents and not taking enough safety 
measures to prevent these accidents from happening.
    But anything bigger than that, they are treating it as a 
political issue. Right now, they are only addressing the safety 
issue and the corruption issue on a local level. They are not 
bringing the question to a bigger scale, like, pay more 
attention to human rights, to workers' rights, or any 
systematic failure on the part of the government. I think that 
is going to take some time.
    Mr. Foarde. Interesting.
    Ms. Gong. Also, there are several official directives on 
this issue. If a reporter discovers something like that and 
even if they have all the interviews and eyewitness reports, 
they have to contact the local related department, which was 
the department in charge, in order to publish that story. 
Otherwise, they would be held accountable for those 
disclosures.
    And about the SARS, the question is--and I am from 
Guangdong, so I heard from sources in Guangdong that hospitals 
got false reports every day. Every day, somewhere there was a 
fever that looked like SARS or something.
    But the provincial government had already ordered that 
whenever there is an outbreak, they will inform the media. But 
the line of that is, ``You see, this is an example of how the 
government cares for people.''
    Mr. Bu. The central government has sent some journalists to 
disclose this kind of corruption. I could see this on CCTV's 
program ``News in Focus.'' I really, sometimes, just worry for 
their safety. They get into that situation and find out what's 
really going on, just using hand sticks there, and hand-held 
microphones there, just trying to find out who is doing those 
bad things there.
    Another good example is journalists from time to time broke 
some controversial stories, which maybe brought shame to local 
governments. But they can still do that. I did observe some 
tolerance from the central government about their reporting, 
saying that is all right.
    Mr. Lin. I think for SARS, I agree with Huchen that this is 
a social issue. Also, the government and the people have a 
common interest in dealing with SARS. It is not necessarily a 
story. Some local governments, they still try to cover up SARS.
    Then the upper level government may encourage a person to 
expose that kind of problem and some official may be fired. But 
that kind of story would not appear too much in the mass media, 
saying how many officials are fired or who is fired. They do 
not expose that too much, so we do not know.
    Mr. Foarde. My time is up, so I will go on to Dave Dorman 
for another question.
    David.
    Mr. Dorman. Each of you have given some very nuanced 
answers to the question of press freedom in China. It is 
sometimes difficult to understand nuance. It is much easier for 
us to understand the press as free or not free.
    It would help us understand, and this is just a 
hypothetical, if each of you would put yourself in the place--
and many of you have been in this place--of being a journalist 
in China. Say that you have uncovered a case of corruption at 
the local level that you would like to report.
    Could you describe to us the steps that you would have to 
go through before you could report this story?
    Mr. Zhang. First of all, you have to talk to your own boss, 
your section chief. Say, if I am working for the Xinhua News 
Agency, I need to get approval from my Overseas Department.
    He probably will have to get permission from the central 
Xinhua News Agency, depending on the scale and the magnitude of 
the corruption case. If it is a big case, the leader of Xinhua 
may go to the Propaganda Department of the CPC to get approval.
    Mr. Dorman. Then the journalist basically follows his chain 
of command at the newspaper for approval.
    Mr. Zhang. Basically.
    Mr. Dorman. Then the question is not that difficult. You 
find a case of corruption. The gray area in terms of what can 
be reported and what cannot be reported would be fairly clear 
to a journalist at any particular level?
    Mr. Zhang. Well, yes. I think it would be clear. But how to 
treat it and how to report it requires some skill.
    Mr. Dorman. Several of you have mentioned that you have 
seen certain reporting or certain articles out of China that 
are politically risky, and you wonder whether the writer is 
safe. It tells me that there is a bit of gray here in terms of 
making a decision on what can be reported and what cannot be 
reported. But, based on your comments, you are suggesting that 
the decision is fairly clear.
    You suggest that there is a clear line for what can be 
reported and what cannot be reported. Yet, some other responses 
I have heard from you suggested just the opposite. Maybe it is 
just the way things are.
    Ms. Gong. I think the beauty of the system is, nothing is 
that clear. Well, yes, it is clear, you cannot challenge the 
Party's authority. There is no question that that is off 
limits. But there are some issues you can play. Smarter people 
play smarter. Actually, they can play stupidly, also.
    But basically the government has left a large area, a gray 
area, for people. If they are brave, people can test the limit, 
test the limit again, and exceed the limits sometimes. But the 
problem here is the gray area, and the down side, the negative 
side of the gray area is that it makes people constantly think 
of self-censorship.
    Mr. Dorman. Who is testing the limit, though?
    Ms. Gong. Reporters.
    Mr. Dorman. The reporters must get permission from their 
direct chain of command. So risk takes place at the management 
level.
    Ms. Gong. You are questioning about the reporters, or what?
    Mr. Dorman. Who are the risk-takers? At what level does the 
risk take place?
    Ms. Gong. I think it is also a gray area. It depends on 
what paper you work in, what organization you work in. For 
example, if you work in the Xinhua News Agency, they know 
better, and if you work in the local tabloid, you may be the 
only person who deals with everything. But the Party line is 
always there.
    As I said, the beauty of the system is, it makes everybody 
constantly think of self-control, of self-censorship. That is a 
great threat. You know that the threat is always there. But if 
you test the limits, at some point you are there.
    Mr. Lin. May I? I think the political factor is very 
important here. Say at the People's Daily, which is run by the 
central committee of the Party. It is treated as a ministerial 
level organ. So if an editor decides to try to stretch the 
limits maybe it is all right. But if you want to expose 
somebody at the same level, a superior level, the People's 
Daily has no such power. It has to be done by the upper level. 
So, the hierarchy is still an issue here.
    Mr. Bu. Yes. In terms of uncovering corruption cases, like 
you said, I think those who work for some national official 
news organizations have some privileges over those who work for 
local media outlets, for example, those who work for Xinhua 
News Agency, the People's Daily, and CCTV.
    They might not publicly report some problems, but they can 
write internal reference reports to the central government. 
That will get noticed by some central government leaders there, 
especially top leaders.
    When top leaders are involved, the problem reported will be 
immediately resolved. That is why so many ordinary people go to 
the Xinhua News Agency, to CCTV, to the People's Daily and are 
waiting to meet journalists. ``Can you help me resolve this 
problem? You cannot publish it in your newspaper? That is fine. 
But report this to the central government.'' So, the top 
leaders go out of their way to collect information.
    Mr. Foarde. I see that our time has come for this 
afternoon. We have had an extremely rich conversation, with, as 
Dave pointed out a moment ago, very rich and nuanced answers 
from each of you on these questions. They have been very, very 
helpful to us as we continue to look at our freedom of 
expression and free flow of information issues in the Chinese 
media.
    So, on behalf of Chairman Jim Leach and Co-Chairman Chuck 
Hagel, I would like to thank Gong Xiaoxia, Zhang Huchen, Bu 
Zhong, and Lin Gang for spending the time with us this 
afternoon.
    Please, all of you who have stayed with us this afternoon, 
thank you for coming. Please check our Web site for information 
on the next roundtables, which will be next month, in the month 
of October.
    We hope to see you at the hearing on Wednesday morning. 
Thank you very much. Good afternoon.
    [Whereupon, at 4 p.m. the roundtable was concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                   Prepared Statement of Gong Xiaoxia

                           september 22, 2003
    Ladies and Gentlemen,
    I come here today to share with you some of my thoughts on the 
recent development of press freedom, or lack of it, to be more precise, 
in China. Particularly, I would like to discuss the meaning of the new 
regulations issued by the party, which are widely hailed as a bold 
marketization reform and a step toward press freedom. I would like to 
address my concern that the overall misinterpretation of these new 
regulations may lead to misunderstanding of the Chinese political 
situation, and might mislead our foreign policy toward China.
    Perhaps I should first briefly introduce my own background. I was 
born in the People's Republic of China. I was once a peasant, a worker, 
a scholar, and a political dissident there. I came to study in the 
United States in 1987, and am now a U.S. citizen. From 1998 to earlier 
this year, I worked as director of the Cantonese Service in Radio Free 
Asia. I am also a regular contributor to the Chinese language media 
outside China. Therefore, monitoring the Chinese media is not only my 
job, but also part of my daily life.
    Let me quickly outline my main points. Based on my research and my 
personal experience, I believe that the new regulations recently issued 
by the Chinese Communist Party, although they may bring about some 
competition among the media, do not imply any fundamental change in the 
Party's tight political control over the media. In fact, the new market 
these rules create may provide the Party with new means to further 
suppress press freedom. Moreover, it may set off a more nationalistic 
or even xenophobic trend in covering foreign affairs. It may encourage 
further America bashing in the Chinese press.
    These new regulations were issued between June and August this 
year. They greatly limit the number of newspapers and magazines owned 
by the government or party offices. According to these regulations, 
each provincial government office is given the ownership of one 
newspaper and one magazine, each municipal government one paper, while 
county governments are deprived of media ownership. The government 
media can no longer require villages and other groups to buy 
subscriptions. Such forced subscription has been a most resented 
practice for the last half a century.
    As a result of these regulatory changes, most of China's press 
organizations, which used to be directly controlled by the government, 
have now been thrown into a new media market.
    Although the motivation of these new regulations is budget prudence 
instead of press freedom, they have raised hope of limited press 
freedom. Many people believe that, by introducing marketization, these 
regulations open doors for private ownership in media, which is among 
the last areas where government ownership still dominates. In other 
words, the trend of marketization in the Chinese economy has now 
reached the media.
    Will this be the beginning of a new era of press freedom? Most 
China observers have given positive answers. For example, Liu Xiaobo, 
one of the most prominent writers and political dissidents in China, 
has pointed out that marketization will certainly expand freedom. Other 
critics are even more optimistic. They predict that a profit-driven 
competitive media market will expand the horizon of the press, and 
eventually bring about liberalization and press freedom in China.
    Undoubtedly, marketization will introduce competition and profit 
seeking among the media organizations, and thus will indirectly 
encourage some bold experiments between the competitors. However, 
neither marketization nor competition instinctively indicate freedom. 
Rather, market competition may provide the party authorities another 
instrument to control the media, since the terms of competition and the 
rules of this market are largely set by the party. Therefore, to media 
organizations, privately owned or otherwise, winning in a competitive 
market often means to tilt toward the direction of the government 
authorities.
    There are three key questions, which can help us to tell if the new 
media regulations are or are not likely to lead to more freedom. First, 
do media organizations need the approval from the Party Propaganda 
Department to operate? Second, can the Party Propaganda Department 
interfere with the personnel, especially hiring, firing, and promotion 
of editorial and management staff, in media organizations? And third, 
must media organizations follow the guidelines regularly issued by the 
Party in order to stay in business?
    Unfortunately, the answers we have to these questions leave little 
room for optimism. Press freedom in China remains merely an illusion, 
even within a competitive market.
    In order to survive in today's market, Chinese media organizations 
have to yield to the pressures coming first from the Party, and then 
from the market. To be in business and profitable, they must promote 
the Party ideology but do so in ways that are attractive to their 
audience, especially when compared to the old stiff propaganda style. 
In the background, the Party maintains tight disciplinary power over 
any members of the media who dare to challenge its authority.
    Marketization in the media does not necessary indicate 
liberalization. In fact, combined with strict dictation from the Party, 
it may well open new forms of media control that use the pressures of 
the new market to strengthen political dictatorship.
    In fact, the profit-seeking trend has been taking place for a few 
years. The new regulations merely make it official. Under this new 
trend, I have observed that the Chinese media organizations have indeed 
become more diverse and bolder in reporting social and some marginal 
domestic political issues, but few dare to challenge the political 
authorities.
    Meanwhile, I am also greatly disturbed by the intensifying 
hostility by the Chinese press toward the United States in its coverage 
of international affairs in general, and of the war on terror in 
particular.
    A review of the Chinese media since September 11 shows increasingly 
negative coverage of the West, and, most especially, of the United 
States. During the war in Iraq, for example, the Chinese media 
constantly attacked the coalition forces, even as it kept praising the 
Saddam regime and the Iraqi military. As a Chinese Internet user 
pointed out, CCTV, the central TV station in China, was perhaps the 
only TV station outside the Arab world which reported so many 
``victories'' of the Iraqi regime, or that launched so many vicious 
attacks to the coalition forces. Another critic said that the Chinese 
press seemed to want to become a ``consultant'' of the Iraqi regime 
regarding military strategies.
    Such a tone was, of course, set by the party propaganda department. 
Since the beginning of the war on terror, that department has issued 
many directives to guide the media in covering this war. Such 
directives, although rarely openly publicized, are handed down to each 
media organization. One of those directives, for example, was issued 
before the 16th Party Congress. It forbade the publication of 
background information about any of the terrorist organizations before 
the Congress. It instructed the media to wait for an official party 
line. After the 16th Congress, 
another directive was issued forbidding negative reporting about any 
Palestinian terrorist organizations, such as Hamas. To the contrary, 
those directives were filled with anti-Western messages.
    Whereas the Chinese media follows the party line as a matter of 
survival in domestic affairs, it seems positively enthusiastic in doing 
so when covering international affairs. They seem to have discovered 
that following the party line here is quite profitable. Take the Iraqi 
war coverage by CCTV as an example. The number of its viewers jumped 28 
fold during this period. The station consequently earned an extra 100 
million US dollars. In other words, the Chinese media was able to 
collect millions dollars by selling anti-American propaganda. The 
Chinese audience, it seems, has a genuine appetite for receiving and 
accepting such propaganda.
    The Chinese media have found a niche here. In the past few years, 
they learned that America bashing is not only politically correct, and 
therefore safe, but also fashionable, and therefore profitable.
    Why so? I can think of several reasons, including the popular 
nationalistic and anti-West sentiment, which has been repeatedly 
demonstrated in such events as the EP3 spy plane incident and the 
bombing of the Chinese embassy in Yugoslavia. However, the fundamental 
underlining reason remains the government's tight control over the 
media.
    Today, although China has become a member of WTO and its economy 
has become more capitalistic than communist, the Chinese government 
still monopolizes all information resources from abroad. Except for a 
handful of prudent Internet users and the audience that listens to 
international radio stations such as Voice of America and Radio Free 
Asia, the government-controlled press is the only source of information 
about international affairs in China. Unlike in domestic issues, when 
most Chinese have first-hand experience to assist their judgment, the 
government can easily and does continue regulatory charges 
notwithstanding to dominate the coverage of international issues and 
thereby form and control popular opinions. The popular nationalistic 
sentiment mentioned above is itself largely a product of government 
propaganda.
    In the past 10 years, people in the United States witnessed 
increasing hostility from the Chinese media toward their government, 
their political system, and their foreign policies. The Chinese 
government should be held responsible for such hostility, since it is 
this government that sets the tone for China's press. The Congress of 
the United States should be aware this basic fact, and not be thrown 
off the track by the Chinese Communist Party's efficiency-focused 
marketization of the media.
                                 ______
                                 

                   Prepared Statement of Huchen Zhang

                           september 22, 2003
    My name is Huchen Zhang, I'm a senior editor at the China Branch of 
Voice of America. I'm very happy to be here this afternoon to talk 
about the state of the Chinese press in the wake of the SARS outbreak. 
Before I begin, I'd like to tell you a little bit about myself. I 
attended the Journalism School of the Chinese Academy of Social 
Sciences from 1982 to 1984. From 1984 to 1990, I worked as a reporter 
at the ``Central News Desk'' of the Overseas Department of the Official 
Xinhua News Agency, covering the National People's Congress, the 
Chinese parliament, and a number of government ministries. I came to 
the United States to study in 1990 and have been working for the Voice 
of America since 1991.
    At the height of the SARS outbreak last April, the Political Bureau 
of the Chinese Communist Party held an emergency meeting in Beijing to 
discuss how to deal with the unprecedented epidemic. Among the 
decisions made at the meeting was to ask the media to report truthfully 
and accurately the magnitude and the seriousness of the outbreak. It 
was a reversal of the earlier practice of covering up the disease at 
both the central and local levels. Two high-ranking officials--the 
public health minister and the mayor of Beijing were sacked for the 
cover-up.
    Drastic changes were seen overnight. Numbers of new cases and 
deaths were published daily in the newspapers and on radio and TV. 
Press conferences held by the new mayor of Beijing were carried live on 
China's Central Television Station (CCTV). Mr. Hu Jintao, China's new 
president and Party chief, and Mr. Wen Jiabao, the new premier, were 
also seen on CCTV visiting hospitals, shopping centers and homes in the 
cities of Guangzhou, Shenzhen and Beijing, and saying how worried and 
concerned they were about the outbreak.
    Many political observers and analysts of the Chinese press believed 
that this might be a harbinger for a new beginning for the Chinese 
press.
    However, as the truth of the outbreak reached the Chinese public, 
people in large cities, especially in Beijing, became panicky. A large 
number of people, not just those working and living in Beijing 
temporarily, but also Beijing residents, fled the city in a matter of 
days, bringing the risk of spreading the disease to other parts of the 
country, especially the countryside.
    This must have made the Chinese leaders realize that in a country 
that has never seen freedom of the press, the truth of a major epidemic 
such as the outbreak of SARS might be a little too much for its 
citizenry to handle. Another drastic change was seen on the Chinese 
press. Instead of reporting new areas of contamination and public 
reaction, the focus was now shifted to reporting the ``heroic deeds'' 
of the public health workers, and what measures the government was 
taking to keep the virus under control.
    The SARS epidemic came to an abrupt end at the onset of summer. As 
the SARS virus evaporated, so did the hope for any meaningful change on 
the part of the Chinese press.
    Gone also was the hope that the SARS outbreak would lead to any 
meaningful political reform and a new era of openness. Soon after the 
World Health Organization lifted the travel warning to Beijing and 
other major cities, Party officials in charge of propaganda began to 
rein in those whom they believed had gone too far in reporting the 
outbreak. Several newspapers were ordered to close or were warned for 
interviewing a military doctor who wrote to the western media to reveal 
the true states of the SARS outbreak, for reporting a major corruption 
case in Shanghai or discussing any ``sensitive'' topics, such as 
political reform and Tibet independence. People who sent short 
messaging texts on cell phones were also prosecuted.
    A telling example of the increased control of the Chinese media was 
the massive demonstration in Hong Kong on July 1 against the proposed 
anti-subversion legislation. After the demonstration broke out, there 
was a blackout on the part of the Chinese media. Official news media, 
including CCTV, did not report the mass rally at all. TV signals from 
Hong Kong to the mainland containing the demonstration were cutoff 
immediately. It was only 12 days later that the China Daily, the 
official English newspaper, mentioned the demonstration in a 
commentary. Callers to VOA shows commented that they would have been 
kept totally in the dark about the July 1 and subsequent demonstrations 
had it not been for the reporting of VOA and other international radio 
stations.
    The ever increasing control of the Chinese media did not mean that 
people stopped talking about political reform, corruption, the revision 
of the Chinese Constitution and similar sensitive topics. A number of 
publications carried articles on these issues, and a conference was 
held on June 19-20 in the coastal city of Qingdao to debate 
constitutional reform.
    This led the Propaganda Department of the Communist Party to take 
more action. In August, the department ordered party organizations, 
research institutes and universities to stop all conferences and 
suppress all essays on political reform, revisions to the Constitution 
and the 1989 Tiananmen Square crackdown. The department also instructed 
China's news media not to report on these ``three unmentionables.'' An 
associate of Mr. Cao Siyuan, the organizer of the June conference and a 
leading advocate of political reform, told VOA that Mr. Cao was under a 
lot of pressure from the authorities and it would be ``inconvenient'' 
for him to make any more comments on revising the Constitution.
    This month, the government held another meeting on ``consolidating 
and rectifying'' newspapers and periodicals. Decisions made at the 
meeting included closing several hundred local papers and magazines and 
upholding the Communist Party's guidance in news reporting.
    At the same time, broadcasting of VOA and other international radio 
stations continues to be jammed and overseas web sites continue to be 
blocked.
    However, we can not say that there has been no change for the 
better in the Chinese news media. One ``bright spot'' is the reporting 
of accidents. For many years, natural disasters and man-made calamities 
were deemed ``negative news.'' Reporting of such negative news, it was 
believed, would only bring shame to the leadership of the Communist 
Party and socialist system. One lesson the Chinese leaders must have 
learned from the SARS outbreak, I think, is that diseases, natural 
disasters and accidents happen to any country, regardless of its 
political system. At the height of the SARS outbreak, the Chinese 
official media reported a major submarine accident. After SARS, we have 
seen more and more reporting on food poisoning, coal mine explosion and 
other accidents. These reports even lead to the imprisonment of a 
number of officials who were accused of being responsible for the 
accidents or covering up the accidents.
    Now how do we explain the back and forth in the battle for control 
of the Chinese media? To me, the measures that were taken at the height 
of the SARS outbreak were merely measures of necessity. China was under 
a great deal of criticism from the international community, especially 
the WHO. The Chinese citizens had also lost faith in the Chinese media. 
They would rather rely on the grapevine, that is, word of mouth, short 
texts on their cell phones and the Internet, for news of SARS. The 
central leadership took those measures to repair its badly tarnished 
international image and to restore some faith in its legitimacy. Had 
the SARS outbreak lasted a bit longer, it might have built some 
momentum for press reform. As it so happened, the SARS virus evaporated 
at the onset of hot weather, and the party officials congratulated 
themselves on their good luck, and went on doing things the old way.
    What about the future of the Chinese press? I see two forces at 
work: one is the conscientious effort on the part of Chinese 
journalists to break the control of the government. Journalists 
continue to report on sensitive political issues either out of their 
sense of social responsibility or because of the forces of market 
economy. As more and more newspapers and other news organizations fight 
for their survival in an ever-growing market economy, they feel the 
need to increase their market share by reporting on topics people are 
concerned about. The other force is the Communist Party's desire to 
polish its image and consolidate its rule. Reporting of large scale 
corruption and systematic failure would only weaken its rule.
    In any case, the fight for freedom of the press cannot be won 
overnight. After all, it will take a Chinese Gorbachev, not a virus, to 
bring down the iron rule on the Chinese press.

                     Prepared Statement of Bu Zhong

                           september 22, 2003
    Distinguished representatives of the CECC, Ladies and Gentlemen:
    China has been in the midst of rapid change in all sectors. Media 
reform, though much slower than other sectors, is now beginning to 
catch up.
    Perhaps few predicted that the SARS epidemic could bring such a 
widespread panic across China, and a not so widespread, but still 
heavy, push to China's media reform.
                       china's media during sars
    As we know, the SARS epidemic first originated in South China's 
Guangdong Province in February. It then spread to Beijing and several 
other provinces. Not surprisingly, the government-controlled media kept 
tight-mouthed about the disease at the beginning. During that period, 
Beijing residents mainly depended on the Internet, e-mails and cell 
phone messages for SARS information. The Internet came to China as the 
first forceful reminder that the days of censorship and suppression of 
information are numbered.
    The media silence was broken in early April after China's new 
Premier Wen Jiabao admitted that the SARS situation was ``grave.'' In 
those days the reporting was mainly about government efforts to contain 
the spread of the disease and heroic medical workers saving lives.
    In May and June, however, a few newspapers began to criticize the 
government's handling of SARS information. More criticism came after 
the government declared it would punish any officials who tried to 
cover up SARS information from the public.
    Let me describe a few of the important ways I see China's media 
evolving today in the wake of the SARS epidemic.
                       media's commercialization
    As one of the first signs of media reform, the media's 
commercialization started silently about 10 years ago. The most 
dramatic step of the commercialization came in June when the central 
government announced that it would end its direct financial support to 
all but three newspapers and one journal.
    This means that most government-owned print media will soon have to 
sever ties with government agencies. (I'm not sure how the broadcast 
media will be affected.) As People's Daily reports, these media ``would 
then be free to operate in the marketplace rather than continuing to 
serve as cultural units under government departments or social 
organizations.''
    China now has more than 2,000 newspapers, 9,000 magazines, and 
2,000 TV stations. But 25 years ago, there were fewer than 200 
newspapers. The rapid growth of the news media has made government 
control less effective, and no one can prevent them from going to the 
market.
                  the end of compulsory subscriptions
    Another sign of China's media reform is the end of compulsory 
subscription, which also happened this June. In the past, before the 
end of each year, the government used to issue circular orders 
requiring all its departments and agencies subscribe to official 
publications. Now this practice is becoming history because the 
government has decided to stop it.
                   changes within official newspapers
    Over the past 10 years, the official media have become increasingly 
unpopular. On Beijing's streets, no People's Daily can be found on 
newsstands. At the same time, the government has been cutting off its 
financial support to its mouthpieces. In late 1990s, the financial 
support China Daily received from the government accounted for less 
than 10 percent of what it needed, while the remaining 90 percent came 
from its ad revenue and a few tabloids it published.
    Nowadays all the official newspapers publish one or more tabloids, 
which carry a lot of ads and have cut their officialdom to a minimum. 
These tabloids make so much money that they can comfortably support 
their more official big brothers. In Beijing, the Beijing Daily 
publishes a tabloid, the Beijing Evening News, and the People's Daily's 
publishes the Jinhua Daily.
                       journalists push frontier
    Many Chinese journalists are pushing the frontier to put their 
``controversial'' stories in print or on air. China Central 
Television's TV magazine, ``News in Focus,'' offers a good example. Now 
and then, it has to pay lip service to the official line for survival, 
which is fully understandable. But from time to time, it airs the 
deepest grievances and the indignation of those oppressed by the sheer 
greed and shamelessness of the lower-level government bureaucracy. To 
me, the show is mainly a muckraker, occasionally, a shocking muckraker, 
in the best tradition of the American muckrakers.
                       changes in top leadership
    The majority of the new top leadership, once in full power, clearly 
has in mind the need to ease media control, but to ease it little by 
little. As high technology develops at breakneck speed and out of their 
control, the Chinese media becomes more and more open almost against 
their will. Some degree of disobedience and even defiance on the part 
of the media can be observed in the past couple of years. And also some 
official tolerance.
    As soon as he gained the power, China's President Hu Jintao invited 
experts to give regular lectures to all the Politburo members. The main 
contents of each lecture (already 10 or so lectures to date) have been 
reported in the press as a subtle means of letting attentive people 
know what's in the minds of the top leaders right now.
    As I remember, the first study session was on the Constitution and 
Rule of Law--a manifest enough hint to the public that during Hu's 
reign, he's going to rule by law, not by his personal authority. The 
latest lecture they had is about the industrialization of media 
contents. The concept is nothing new in the West. But it is in China, 
where media outlets had long been taken as tools of ideology, and 
propaganda machines.
                       no change is insignificant
    It seems to me that no change in China's media is insignificant. 
Right now, the gains made at every step might seem too insignificant to 
matter, but the progress is there for people to see, if they care to 
notice it. These modest gains will in time amount to marked and 
important change.
    In China, growth in press freedom and independence will likely be a 
painfully slow process, but the media are shuffling their feet forward 
in the right direction. One can coax, cajole and coerce it to move a 
little more quickly. But it is unwise, even undesirable for one to 
exercise undue pressure on it, which may yield an effect to the 
contrary. If you refuse to believe things are going in the right 
direction, pick up any newspaper, even the People's Daily, and compare 
it with what it was, say, 10 or even 5 years ago. In those old, dark 
days, news of a plane crash was suppressed in media if there were no 
foreigners on board.
    And next to Internet then came the second great shock that shook 
the leaders to their nerve-ends, the misfortune of SARS. It showed the 
deep-rooted practice of suppression of information and of public deceit 
in the worst possible light. Now all see that this hated practice can 
quickly and directly endanger the lives of thousands of people. And the 
epidemic drove the lesson home in the most convincing manner that the 
denial to the people's right to know could be the denial of their very 
lives.
    Finally, I hope the voices from the Chinese people can be heard 
here. To find out what's happening in China's media, we must listen to 
those who still live in China and those who work in Chinese news media.
    Thank you very much.
                                 ______
                                 

                     Prepared Statement of Lin Gang

                           september 22, 2003
    One by-product of China's economic reform is the growing 
commercialization of the Chinese media. According to official 
statistics, between 1978 and 2002, the number of newspapers in China 
increased from 186 to 2137, while the number of magazines increased 
from 930 to 9029. Most of these media are still owned by the Party-
state, receiving more or less subsidy from the government. However, 
advertising and subscribing income has become the major source of 
revenues for the media, except for newspapers and magazines directly 
run by Party and government organs (dangzheng jiguang). Media 
commercialization has provided new incentives and opportunities for 
journalists to cover lively, sensational, provocative and diverse 
stories, and expose political corruption, even though it may offend 
government officials.
    Amid media commercialization, Party-state organ newspapers and 
magazines continue to lose their readership. The circulation number of 
the People's Daily, the principal mouthpiece of the Chinese Communist 
Party, decreased significantly from 6.2 million in 1979 to about 2 
million two decades later. To increase readership, many Party organ 
newspapers have to rely on their subordinating newspapers for financial 
support. Two-thirds of Party organ newspapers run by provincial Party 
committees have evening newspapers (wanbao) or metropolitan newspapers 
(dushibao). The Guangming Daily, a national newspaper run by the Party, 
targeting intellectuals, has benefited from its subordinating Life 
Times. Even the official New Chinese News Agency carries some 
sensational stories related to sex in its web site.
    To increase readership, China's new leadership under Hu Jintao has 
called for the Party's media to be ``close to the mass, close to the 
realities and close to life,'' reducing the exposure of leaders' 
activities in the media to give more coverage to ordinary people. Most 
recently, the Party plans to end its direct financial support to and 
mandatory subscription requirement of most Party-government newspapers 
and magazines. At the national level, only three newspapers and one 
magazine are the exceptions, including the People's Daily, Guangming 
Daily, Economy Daily and the Seeking Truth (Qiushi), which will still 
be run by the Party's central leadership. At the provincial level, the 
central leadership will allow each Party committee to continue 
operating one newspaper and one journal. Each municipal Party committee 
will be allowed to operate one newspaper only, and county-level Party 
committees and government can no longer operate media publications.
    Beijing's reform plan on Party media is based on at lease two 
considerations:

<bullet> Reducing the financial burden. In today's China, each province 
    can have as many as several dozen of Party newspapers and 
    magazines, starting from the provincial level down to the county 
    level. These media are dull in content, relying heavily on subsidy 
    and mandatory subscription by governments at the different level. 
    The lower level of the government, the more Party newspapers and 
    magazines are to be subscribed; thus creating heavy burden for the 
    grassroots.
<bullet> Strengthening the Party media. To maintain too many Party 
    newspapers and magazines not only increases government's financial 
    burden, but also make Party media either more boring--repeating the 
    same tune here and there--or inconsistent. By keeping limited 
    number of Party newspapers and magazines, Beijing apparently tries 
    to make a distinction between Party media and mass media, freeing 
    the former of fiery market competition with the latter without 
    loosing the Party's guideline.

    The relative retreat of Party newspapers and magazines from media 
market follows Beijing's strategy of retaining large state-owned 
enterprises and privatizing smaller ones (zhuada fangxiao) in economic 
reform. The commercialization of mass media does not necessarily mean 
that the Chinese media will gradually gain political independence from 
the State control. For the foreseeable future, political taboo will co-
exist with Beijing's one-Party rule. Chinese journalists have to be 
cautious in exposing the dark side of the society, because too much 
exposure of social problems will not only shake people's faith in the 
performance of the Party-state, but also challenge the legitimacy of 
the political regime. In the absence of significant political reform, 
we should not expect media freedom in China as we understand in the 
United States.

                                   - 

</pre></body></html>
